No. 19-422

In the Supreme Court of the Anited States

PATRICK J. COLLINS, ET AL., PETITIONERS,
U.

STEVEN T. MNUCHIN, SECRETARY, U.S. DEPARTMENT OF TREASURY, ET AL.

On Petition for a Writ of Certiorari
to the United States Court of Appeals
for the Fifth Circuit

BRIEF FOR BLACKWELLS CAPITAL LLC AS
AMICUS CURIAE SUPPORTING PETITIONERS

As required by Supreme Court Rule 33.1(h), I certify that the Brief for
Blackwells Capital LLC as Amicus Curiae Supporting Petitioners contains 4,422
words, excluding the parts of the document that are exempted by Supreme Court Rule
33.1(d). I further certify that the Brief complies with the word limitations established
by Supreme Court Rule 33.1(g)(x).

I declare under penalty of perjury that the foregoing is true and correct.

Executed on October 29, 2019.

 

ason A. Levine
Counsel for Amicus Curiae
